                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Zase Number: 1-04100037                                                                    Page 1 of 1



        In October 2004 OIG received information from the Help Desk indicating that one of their
        technicians had discovered pornographic images on an NSF computer assigned to the subject'
        while performing a repair.

        During our investigation we conducted a search of the computer and the Subject's Outlook e-
        mail account. We also interviewed the Subject regarding the files identified and he
        acknowledged downloading them to his NSF issued computer. Subsequently, we prepared a
        Report of Investigation(RO1) detailing our investigation. This ROI concluded that the Subject
        had violated NSF policies relating to use of electronic resources and recommended that
        appropriate adminsitrative action be taken against the Subject.

        The ROI was submitted to the Subject's supervise? and we received confirmation that the
        subject's employment had been terminated because of his actions.

        The ROI and termination notice are attached and constitute the close out for this case.




ISF OIG Form 2 (11/02)
            lUational3cience Poundation
             Office of Inspector General




                                Confidential
                            Investigation Report
I

I                         Case Number 1-04100037
                             20 December 2004



    NSF OIG Form 22a (1103)
                                         Summary

This investigation involves an NSF employee,' who acknowledged to OIG, that he had
visited inappropriateweb sites such as online gambling sites, singles dating sites and
adult sites containing pornographic material fiom his NSF computer. This activity took
place while the subject was on duty. Additionally, this employee downloaded various
files to the hard drive of the NSF computer. These files included photographs of nude
women and video clips containing sexually explicit activity. The NSF Office of
Inspector General (OIG) identified a potential violation of current NSF Policy regarding
the Personal Use of NSF's Technology and Communication Resources contained in NSF
Bulletin 04-11.

                                    OIG Investigation

In October 2004, the Help Desk received a trouble ticket fiom the I-T Computer
Specialist for the subject's directorate requesting a service calla2 The trouble ticket
stated that the subject's PC was not functioning properly.                             --

The Help Desk assigned a technician3 to troubleshoot the subject's computer.' The
technician reported that when he initially logged onto the subject's computer he was
inundated with popup adds and spyware applications. The technician stated that as he
wa;s running a Spysweeper program he observed a large number of files in one of the
subject's personal directorie~.~The technician added that as he was checking on the files
he observed several photographs of nude women. The technician stated that he then
completed the spyware application and returned to the Help Desk area where he reported
the photographs to his supervisor.6 The technician added that the supervisor then went to
the subject's work area and removed the computer for further review.

OIG received information fiom the Branch chief 'at the Help Desk indicating that one of
their technicians had discovered numerous pornographic images on an NSF computer
while performing a repair. The Branch Chief stated that the subject had submitted a
trouble ticket indicating a problem with his computer and while attempting to identify the
problem, the technician discovered a large number of jpeg and mpeg files. The Branch
Chief added that the directories were set to thumbnails so the technician observed
numerous nude photographs without opening any of the subject's folders. The Branch
Chief also advised that after consulting with the subject's supervisor, his computer was
removed fiom his work area and secured in the Help Desk area.
    The computer was turned over to OIG for further inspection. A backup image of the
    computers hard drive was created prior to accessing any of the files contained on the
    computer.

    The OIG investigator completed a search of the hard drive of the subject's computer with
    the assistance of an I-TSpecialist. This search identified numerous files on the C: drive
    that included pornographic video clips and photographs and a number of other
    inappropriate video clips. A total of 35 video clips were identified in the various folders
    with names such as "Deep Tongue Massage and Swallow," "Lacy Duvdle-Nice Rack 6,"
    and "Porn Eye Cum Shot". These were all found to be short (3-4 minute) video clips
    containing hard-core sexual content!

    This review also determined that all of the videos or photographs identified contained
    subjects that were obviously adults. There were no indications that any of the
    photographs or videos contained any underage subjects. Based on this finding it was
    determined that due to the lack of any criminal violations, this matter would be handled
    administratively and not require a referral to the United States Attorney's Office for its
    review.

    Additionally, a review of a small sampling of the 700-jpeg files previously identified
    found numerous photographs of nude females, some sexually explicit. Both the video
    clips and the jpeg files were found to have modified dates ranging fiom early 2003
    through 10/19/2004. A number of additional inappropriate video clips with names such
    as "91 1 Greatest Lie Ever Sold," "Brotherhood of Darkness," and "Police State 3-Total
    Enslavement" were also identified. These were found to be video clips ranging up to 2
    hours in length presenting radical views of the government's involvement in numerous
    incidents. A number of these videos were downloaded fiom a web site identified as
    Prisonplanet.TV. These files contained modify dates ranging fiom 2001 through
    10119/2004.

    A review of the subject's outlook folders identified a total of 144O-t e-mails with
    attachments, in the subject's sent box. A subsequent review of the attachments found a .
    number of photographs and video clips containing pornographic material. A number of
    the attachments identified in the e-mails contained file names identical to files found on
    the subject's hard drive. Additionally, 1750+ files with attachments were found in the
    subject's In Box. These attachments included a number of photographs of nude women.
    All of the files reviewed contained modified dates ranging fiom 4/9/02 through
    10119/04?

    The subject was interviewed'' by representatives fiom NSF's Office of Inspector General
    in reference to the files found on the computer. Prior to the interview the OIG provided


i   * See Tab#l- Partial List of files located on subject's computer
     See Tab #2- Example of files located in subject's Outlook folders
    loSee Tab #3
the subject with both a Garrity warning1' and a Weingarten warning,12both of which
were read and signed by the subject. During the interview the subject initially denied
any knowledge of the files in question but after being presented with the evidence of the
files and e-mails the subject admitted that he had found and saved the pornographic
material on his computer. The subject also stated that he had sent some to himself at his
personal email account. He stated that he understood that these activities were
inappropriate at work. The subject also admitted to having heard of the website called
Prison Planet TV,and to downloading several films from this website.

During the interview the subject was advised that the files on the computer would be
removed prior to it being returned to the subject. The subjectwas also advised that he
should review his outlook e-mail folders and remove all inappropriate files and
attachments. The subject also acknowledged that he was familiar with NSF's personal
use policy for use of government equipment. When presented with a copy of the personal
use policy email that was sent to all NSF employees this past summer the subject
reviewed the email and acknowledged he had received the e-mail and was familiar with
the policy. 13

                                           OIG Analysis

Based on the information contained in this report and the subject's own admission, OIG
concludes that the subject utilized his NSF computer to visit inappropriate web sites,
download various photographs and videos and maintain these photographs and videos on
the NSF computer.

                                         OIG Conclusions

By accessing inappropriate web sites and downloading and maintaining
inappropriate files on his NSF computer such as pornographic photos and videos,
the subject knowingly violated policies contained in NSF BULLETIN 04-11,
Personal Use of NSF's Technology and Communication Resources, which states;
"Basic access to the Internet or electronic mail system does not result in an increased cost
to the agency. Hence, employees may make use of the Internet and electronic mail for
matters that are not official business provided that the following criteria are met: (1) the
use does not result in an additional charge to the government (web sites are generally
identified as such when the user attempts to access them), (2) the use is not offensive to
co-workers or the public (such as sexuallv explicit or other wise inappropriate web
sites), and (3) the use is not for illegal activities (such as gambling)." (Emphasis added)




" The written Garrity Warning advised the subject that he did not have to reveal information that might
incriminate him (i.e. result in a criminal action against him). See Tab #4
''The written Weingarten Warning advised the subject of his right to have a bargaining unit representative
present during the interview if he so desired. See Tab #5
" NSF Bulletin No. 04-11. See Tab # 6
                                OIG Recommendations

In reference to the conclusions outlined above, we recommend that the National Science
Foundation proceed with administrative actions that are appropriate and consistent with
previous similar incidents.

Please advise us of the actions taken in this case by January 3 1,2004.
